<html>
<title> - THE GLOBAL NUCLEAR WEAPONS ENVIRONMENT</title>
<body><pre>[Senate Hearing 115-187]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-187
 
                       THE GLOBAL NUCLEAR WEAPONS
                              ENVIRONMENT

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2017

                               __________

         Printed for the use of the Committee on Armed Services


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
        
        
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-965 PDF                 WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
       
        
        
        
        


                      COMMITTEE ON ARMED SERVICES

JOHN McCAIN, Arizona, Chairman      JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma           BILL NELSON, Florida
ROGER F. WICKER, Mississippi        CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska               JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota           RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                    JOE DONNELLY, Indiana
THOM TILLIS, North Carolina         MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                TIM KAINE, Virginia
DAVID PERDUE, Georgia               ANGUS S. KING, JR., Maine
TED CRUZ, Texas                     MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina      ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                 GARY C. PETERS, Michigan
LUTHER STRANGE, Alabama              
                                     
                                     
               Christian D. Brose, Staff Director   
               Elizabeth L. King, Minority Staff Director
                                     
                                     
                                  (ii)

  


                         C O N T E N T S



                             March 8, 2017

                                                                   Page

The Global Nuclear Weapons Environment...........................     1

Kehler, General C. Robert, USAF [Ret.], Former Commander, United      3
  States Strategic Command.
Payne, Dr. Keith B., Professor and Department Head, Defense           7
  Strategic Studies, Missouri State University.
Samore, Dr. Gary S., Executive Director for Research, Belfer         13
  Center for Science and International Affairs, Harvard Kennedy 
  School.

                                 (iii)
                                 


                 THE GLOBAL NUCLEAR WEAPONS ENVIRONMENT

                              ----------                              


                        WEDNESDAY, MARCH 8, 2017

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Deb 
Fischer (chair of the subcommittee) presiding.
    Committee members present: Senators Fischer, Inhofe, 
Cotton, Donnelly, Heinrich, Warren, and Peters.

            OPENING STATEMENT OF SENATOR DEB FISCHER

    Senator Fischer. Welcome. The hearing will come to order.
    We have just had a vote called here in the Senate, so we 
are going to have a 15-minute recess so members of the 
committee can vote, and then we will come back and start the 
hearing.
    So, we are in recess. Thank you.
    [Recess.]
    Senator Fischer. The committee will come to order.
    The committee meets today to receive testimony on the 
global nuclear weapons environment. As the first formal hearing 
of the Strategic Forces Subcommittee for this year, the 
objective is to set the stage for the committee's review of the 
President's fiscal year 2018 budget request as it pertains to 
nuclear matters.
    We are joined today by three well-known former Government 
officials, all experts in the field of nuclear deterrence and 
arms control.
    Dr. Keith Payne was the principal architect of the 2001 
Nuclear Posture Review in the George W. Bush Defense 
Department.
    Dr. Gary Samore served as Senior Advisor to President Obama 
on nuclear and arms control policy.
    Retired Air Force General Robert Kehler is our military 
expert, having served as Commander of U.S. Strategic Command.
    This hearing comes as the Administration begins work on a 
new Nuclear Posture Review. I believe the policy foundations of 
our nuclear deterrent and modernization programs remain sound, 
and I agree with the hope you expressed in your opening 
statement, General Kehler, that, quote, ``The upcoming Nuclear 
Posture Review validates these plans and restates the urgency 
needed to carry them out.''
    I look forward to hearing more from our witnesses about 
their perspectives on the NPR and what they believe the key 
objectives or considerations should be.
    I'd also like to welcome the new members we have on this 
committee. I look forward to working with each of you and 
continuing the bipartisan consensus on the need for modernizing 
our nuclear enterprise.
    With that, I would like to turn to our ranking member, 
Senator Donnelly, for any opening remarks he would care to 
make.

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Madam Chair. I want to start 
today by welcoming you as the new Chair of our subcommittee. 
Senator Fischer has been a leader on many of these issues for 
years, and I look forward to working together with you to 
maintain our strong bipartisan consensus on the importance of 
the U.S. nuclear deterrent and the need for continued U.S. 
leadership on nuclear non-proliferation.
    Let me also thank our witnesses for joining us today to 
talk about the state of some of the world's nuclear powers, not 
just Russia and China but North Korea, India, and Pakistan. 
We've asked our witnesses to review and assess what has changed 
in the world since the last Nuclear Posture Review in 2010.
    We know Russia has become increasingly aggressive toward 
the United States and our allies. We now have public reports of 
serious violations of the [Intermediate Range Nuclear Forces] 
INF Treaty, a landmark agreement signed by President Reagan and 
Mikhail Gorbachev in 1987.
    Likewise, we have reports that North Korea is within reach 
of developing an [intercontinental ballistic missile] ICBM. 
Whether that missile can carry a nuclear warhead is still in 
debate, but we must prepare for the worst case.
    Meanwhile, China is developing a nuclear-armed submarine to 
patrol the Pacific, holding the United States at risk and 
impacting the stability of South and Southeast Asia.
    These are all troubling developments that have come to the 
fore since the 2010 [Nuclear Posture Review] NPR. I look 
forward to the testimony of our witnesses on these pressing 
issues and their implications for U.S. national security.
    Before I close, I want to note that over the past several 
Congresses we have worked hard to keep the modernization of our 
nuclear deterrent bipartisan. This involves recapitalizing all 
three legs of our triad over the next 20 years and major life 
extension programs for our warheads. Our planned nuclear 
modernization is a long-term acquisition program, and we cannot 
lose sight of the fundamental importance of this ongoing effort 
as we move forward in this Congress.
    The young airmen in the ICBM fields and on our bombers, and 
sailors on deterrence patrol at sea, are counting on us to 
replace their aging systems. I hope we can meet their 
expectations and get them the modernized triad they so badly 
need.
    I want to thank all of our new members. Welcome aboard.
    Thank you, and I look forward to today's briefing.
    Senator Fischer. Thank you, Senator Donnelly.
    We now turn to our witnesses. Your full statements will be 
made part of the record, so I ask that you provide brief 
opening comments of four to five minutes, after which we will 
proceed with seven-minute rounds.
    General Kehler, welcome. Nice to see you.

  STATEMENT OF GENERAL C. ROBERT KEHLER, USAF [RET.], FORMER 
           COMMANDER, UNITED STATES STRATEGIC COMMAND

    General Kehler. Thank you, Madam Chair. Nice to see you as 
well, and thank you for inviting me. Senator Donnelly, thanks 
to you as well, sir, and thanks to the members of the 
subcommittee. I say this in my prepared remarks, but this 
subcommittee provided an awful lot of support to me personally 
when I served at Strategic Command and before that at Air Force 
Space Command, and especially to the men and women that I was 
privileged to command. Thank you for all of that.
    I am going to be presenting my personal perspective today, 
having taken the uniform off now a couple of years ago. I'm not 
representing the Department or STRATCOM or the Air Force today. 
I'm representing my own views and opinions. To preserve as much 
time as possible for your questions, I just want to highlight 
three points for you to consider.
    First, as tempting as it is to call today's situation a new 
Cold War, I think it's very important to remember that we live 
in far more complicated and uncertain times today. The diverse 
strategic threat that we face is far more complex than the 
singular threat we faced during the Cold War. To effectively 
deter dangerous actors who have widely different motives, 
objectives, and capabilities requires us to carefully tailor 
our deterrent strategies, our plans, and our capabilities to 
match them. One size does not fit all. To effectively assure 
our allies and partners of the extended deterrence guarantee 
requires us to coordinate our strategies and plans with their 
unique perspectives and needs as well.
    Second, nuclear weapons are not gone from world affairs, 
and it doesn't look to me like they're going to be gone anytime 
soon. Since the end of the Cold War, the United States has 
deemphasized the role and prominence of our nuclear weapons. 
Along with Russia, we have dramatically reduced the number of 
deployed weapons and supporting stockpile. We've postured the 
remaining force to be far less aggressive than what I 
experienced when I began serving in the mid-1970s.
    Combat experience has shown us that conventional and other 
forces can now be realistically considered in some scenarios 
and again some potential targets where nuclear weapons were 
once the preferred or, in some cases, the only approach. We 
don't have to rely on our nuclear weapons in quite the same way 
today as we did during the Cold War, without question. Twenty-
first Century strategic deterrence must be based on more than 
nuclear capabilities.
    Nevertheless, nuclear weapons continue to perform a 
critical foundational role in our defense strategy and the 
strategies of our allies and partners. Nuclear weapons remain 
the ultimate guarantor of our national survival. Nuclear 
weapons prevent the coercive and, more importantly, the actual 
use of nuclear weapons against us and our allies. Nuclear 
weapons constrain the scope and scale of conflict. Nuclear 
weapons obviate the need for our allies to acquire their own. 
Nuclear weapons force potential adversary leaders to stop and 
ponder the consequences of their actions before they act. In my 
personal view, history shows that no other weapons have the 
same deterrent effect as nuclear weapons.
    Third, the U.S. is at a critical point regarding the future 
of our nuclear capability. Over the last 10 years we have 
conducted 18 to 20 studies--it depends on which ones you 
count--on our nuclear posture and our nuclear forces and the 
issues that we've had in our nuclear forces. Some of those I 
participated in directly, by the way, and all have said the 
same thing: the systems are at the end of their service lives. 
We are rapidly expending whatever margins are left, and we are 
out of time.
    Over the last few years a basic consensus has emerged 
between the executive and the legislative branches regarding 
the way ahead to modernize the weapons, the delivery platforms, 
the critical infrastructure that supports them, and the 
supporting command, control, and communications systems. In my 
view, the most important step Congress can take is to get on 
with it.
    Finally, clarity and consistency are as important now as 
they ever were during the Cold War. In my personal observation, 
since the end of the Cold War policymakers across 
administrations have sent conflicting signals regarding the 
continued value of the U.S. nuclear deterrent and the necessity 
and cost of its modernization. Committing to the plan and 
moving forward to execute it will do much to demonstrate our 
resolve. Deterrence credibility demands it.
    Again, Madam Chair, thank you for inviting me, and I look 
forward to your questions.
    [The prepared statement of General Kehler follows:]

             Prepared Statement by General C. Robert Kehler
    Chairman Fischer, Ranking Member Donnelly, and distinguished 
members of the subcommittee, I am honored to join you today to offer my 
personal perspective on the global nuclear weapons environment. The 
views I express today are mine and do not represent the Department of 
Defense, United States Strategic Command, or the United States Air 
Force.
    As I begin I want to thank you for the support you provided to me 
and the people I was privileged to command while I served at Air Force 
Space Command and United States Strategic Command, and for your 
continued focus on these important matters.
                   21st century security environment
    We live in highly uncertain and complex times and I continue to 
believe that a robust strategic deterrent composed of missile defenses, 
leading-edge conventional and non-kinetic capabilities, modern nuclear 
forces, assured command and control, effective intelligence collection 
and support, and highly trained and well-led people will be needed to 
underwrite U.S. national security and to assure the security of our 
allies and partners for as far into the future as I can see.
    Threats to our security and the security of our allies are diverse, 
can arrive at our doorsteps quickly, and can range from small arms in 
the hands of terrorists to nuclear weapons in the hands of hostile 
state leaders. Yesterday's regional battlefield is becoming tomorrow's 
global battle-space where conflicts may begin in cyberspace and quickly 
extend to space . . . most likely before traditional air, land, and sea 
forces are engaged. Adversaries are acquiring technologies and 
exploiting the interconnected nature of our world to quickly transit 
political, geographic, and physical boundaries. The possible 
intersection of violent extremism and weapons of mass destruction 
remains a significant concern that requires constant vigilance.
    State and non-state actors alike stress our intelligence 
capabilities and contingency plans by employing highly adaptive, hybrid 
combinations of strategies, tactics, and capabilities and by using the 
speed of information to further their cause and mask their activities 
behind a veil of deception and ambiguity. New capabilities like cyber 
weapons and unmanned vehicles are emerging and familiar weapons like 
ballistic missiles and advanced conventional capabilities are more 
available, affordable, and lethal.
    Current events remind us that we must continue to pursue and 
destroy violent extremists and their networks while remaining 
constantly on guard to prevent and respond to attacks from them. Beyond 
violent extremists, state adversaries are seeking to change the 
strategic situation in their favor by threatening the U.S. and allied 
homelands below the nuclear threshold with attack by long-range 
conventional and cyber weapons, while preserving the capability to 
escalate to nuclear weapons with a variety of options from limited to 
major attacks.
    This type of ``integrated'' strategic threat is completely 
different from the Cold War when strategic attack was synonymous with 
nuclear attack. When used in concert with capabilities designed to 
degrade our key operational enablers (e.g., space-based ISR and 
communications) and negate our conventional power projection 
capabilities, state adversaries believe a credible threat to escalate a 
conflict to the strategic level against the U.S. Homeland and the 
homelands of our allies will raise the risks and costs of U.S. 
intervention to unacceptable levels, force the U.S. to the sidelines, 
fracture our alliances, and thereby enable more assertive foreign 
policies and aggressive actions. Nuclear weapons underwrite their 
approach.
    Even discounting for hyperbole, recent public reports validate what 
I saw while on active duty. Violent extremists continue to evolve and 
present an active threat. Russia and China are both upgrading their 
significant long-range conventional strike capabilities and exercise 
them routinely; both are active in cyberspace; both are deploying the 
means to threaten our national security space assets; both are 
improving their anti-access/area denial capabilities to challenge our 
forward-deployed and power projection forces; and both can quickly 
inflict enormous casualties and damage on the U.S. and our allies with 
nuclear forces that they are modernizing. Although I believe the 
likelihood of a massive surprise nuclear attack is low today (and still 
must be deterred), I am troubled by statements from Russia and 
elsewhere that describe the possible limited use of nuclear weapons in 
regional conflicts.
    Beyond Russia and China, North Korea routinely threatens its 
regional neighbors, United States territory, and United States forward 
forces with conventional and nuclear attack and is aggressively working 
to deploy its weapons on intercontinental-class missiles to threaten 
the United States directly. India and Pakistan raise the potential of 
nuclear use in their disputes. Active conflict and unrest continue 
elsewhere.
    In my view, we cannot deal with any of today's adversaries in a 
``one size fits all'' manner. Deterring dangerous actors with widely 
different motivations, objectives, and capabilities requires us to 
carefully tailor our strategies, plans and capabilities. Deterrence 
strategies that are the preferred ways to counter a nation-state will 
likely not be effective against violent extremists where direct action 
is often the only recourse. Nuclear weapons may not be the most 
credible deterrence tool in some scenarios where they were once the 
preferred (sometimes the only) option. Therefore, we must match our 
strategies, plans, and capabilities to individual actors and deploy a 
range of conventional, non-kinetic, and nuclear capabilities that can 
either deter (always the preferred outcome) or, if necessary, defeat 
them in multiple scenarios. Similarly, we must also synchronize our 
extended deterrence strategies and plans with the unique needs of our 
allies and partners.
               the enduring role of u.s. nuclear weapons
    A long-held view of deterrence theory suggests that deterrence 
exists when an adversary believes they cannot achieve their objectives, 
will suffer unacceptable consequences if they try, or both. It is based 
on an adversary's understanding of the capability and resolve of their 
potential enemy. Ultimately, deterrence is about human beings, what 
they value, and what they believe.
    The end of the Cold War allowed the U.S. to reduce the role and 
prominence of nuclear weapons in our defense planning and to 
dramatically reduce both the number of deployed weapons and the overall 
size of our stockpile. As several of my predecessors at United States 
Strategic Command and I recently stated: ``Today's nuclear triad is far 
smaller and postured much less aggressively than its Cold War ancestor. 
Shaped by presidential initiatives and arms reduction agreements, by 
2018 the number of weapons deployed on triad systems will be barely 
one-tenth of Cold War highs. Heavy bombers and supporting tankers are 
no longer loaded and poised to take off with nuclear weapons, and 
ballistic missiles are aimed at open areas of the ocean. Theater 
nuclear forces have been reduced to a small number of dual-capable 
aircraft supporting the NATO alliance.'' \1\ In addition, policymakers 
have refined the U.S. position on the potential use of nuclear weapons 
(extreme circumstances where vital national interests are at stake) and 
have restated the U.S. commitment to the negative security guarantee 
contained in the Nuclear Non-Proliferation Treaty.
---------------------------------------------------------------------------
    \1\ Gen. C. Robert Kehler, Gen. Larry D. Welch, Adm. James O. 
Ellis, Gen. Kevin P. Chilton, Adm. Cecil D. Haney, Adm. Henry G. 
Chiles, Gen. Eugene E. Habiger, Adm. Richard W. Mies, Open Letter, 
``The U. S. Nuclear Triad Needs an Upgrade,'' The Wall Street Journal, 
12 January 2017, p. A17.
---------------------------------------------------------------------------
    Nevertheless, nuclear weapons continue to play a critical role in 
our security strategy and the strategies of our key allies and partners 
as the ultimate guarantor of national survival. While no longer needed 
to deter a conventional attack from the massed armored formations of 
the now extinct Warsaw Pact, nuclear weapons continue to prevent both 
the coercive and actual use of these weapons against us (their primary 
objective), constrain the scope and scale of conflict, obviate the need 
for additional allies and partners to acquire their own, and compel 
potential adversary leaders to consider the implications of their 
actions before they act. Highly precise conventional weapons, non-
kinetic capabilities, and defenses all play an increased deterrent role 
today; but I believe history shows that conventional weapons have never 
had the same overall deterrent effect as nuclear weapons and, 
therefore, cannot serve as a large-scale replacement. The ultimate 
paradox of the nuclear age is still with us--to prevent their use, we 
must remain credibly prepared to use them.
                             going forward
    The Cold War has been over for more than 25 years and as tempting 
as it is to look backward to that time as the basis for today's 
solutions (especially those involving nuclear weapons), we must 
recognize that little in today's world is the same. I am concerned when 
I hear the words new cold war used to describe either the current 
situation or a suggestion of our response to it. While many of the 
concepts sound the same, how we understand our adversaries and develop 
approaches to deter them must be based on a clear-eyed assessment of 
them and the realities of the 21st Century; not the mid-point of the 
20th Century. Nuclear weapons remain foundational to our security, but 
nuclear weapons are only one of many important instruments that must be 
carefully orchestrated for maximum deterrent credibility and effect 
today.
    U.S. nuclear strategy and policy have been remarkably consistent 
over the decades. Changes have been evolutionary and not revolutionary 
and, thus, I believe the United States and Russia have been able to 
establish a pathway that has dramatically reduced the nuclear threat 
while maintaining stability and deterrence credibility. Arms reduction 
and other efforts have verifiably reduced the stockpiles while 
promoting mutual visibility and understanding. Nuclear policy and 
employment strategy have been revised to meet today's deterrence needs, 
including the full consideration of conventional and non-kinetic strike 
capabilities in plans and options. Nuclear weapons are not gone from 
world affairs and are not likely to be gone anytime soon. The U.S. is 
at a critical juncture regarding the future of our nuclear deterrent 
and, as numerous studies and reports have shown, we are out of margin.
    The time to act has arrived. Again, as my colleagues and I recently 
said: ``The last concentrated investment to modernize the triad came 
during the Reagan administration. We continue to rely on that era's 
Ohio-class ballistic missile submarines (SSBNs), missiles, and B-2 
bombers today as well as B-52s, Minuteman ICBMs, Air Launched Cruise 
Missiles (ALCMs), and command and control systems that were designed 
and fielded far earlier. Even with periodic upgrades and life 
extensions, legacy systems that were conceived and deployed over three 
decades ago are reaching the inevitable end of their service lives.'' 
\2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    A bipartisan consensus to modernize the triad, dual-capable 
aircraft, the nuclear weapons industrial complex, and the nuclear 
command/control/communications system has been carefully built between 
the Department of Defense and Congress. I fully support the triad and 
the nuclear modernization proposals that have been described in recent 
budgets, and hope the upcoming Nuclear Posture Review validates these 
plans and restates the sense of urgency needed to carry them out.
    The modernization plans that are before you address the significant 
issues that exist in the nuclear enterprise. Weapon life extension 
programs will ensure the deployed force remains safe, secure, and 
effective. Modernizing the unique and highly specialized nuclear weapon 
industrial complex will sustain the deployed force and, with adoption 
of the 3+2 strategy, will allow us to further reduce the stockpile 
while retaining the critical capabilities and skills needed to respond 
to an uncertain future. Revitalizing the triad and dual-capable 
aircraft will continue to present an attacker with insurmountable 
attack and defensive problems along with the certainty of an effective 
response, provide the president with a range of options to deal with a 
crisis or conflict, and provide an effective hedge against technical 
failures or geopolitical uncertainty. Upgrading the nuclear command, 
control, and communications system will ensure the president remains 
linked to the forces for positive control.
    In addition to the modernization plans already proposed, I would 
also highlight several other important needs for your consideration.

    <bullet>  Better adaptive planning capabilities to meet emerging 
(and possibly unforeseen) scenarios in a crisis or conflict.
    <bullet>  Increased attention to new threats like cyber weapons, 
inside actors, and drones.
    <bullet>  More emphasis on enhancing the resilience of critical 
space and network infrastructures.
    <bullet>  More effective integration of cross-domain capabilities.
    <bullet>  Prototyping and other steps to retain critical skills in 
nuclear weapon design and manufacture.

    While I think the renewed discussion about strategic deterrence and 
nuclear weapons is long overdue, such discussion can become harmful if 
the result is confusion or paralysis. In my estimation, policy makers 
across several administrations have sent conflicting signals regarding 
the continued value of the U.S. nuclear deterrent and the necessity and 
cost of its modernization. Clarity and commitment regarding nuclear 
weapons, their continued foundational role in U.S. and allied defense 
strategy, and the investment needed to sustain them are as important 
now as they ever were during the Cold War. Deterrence credibility and 
national security demand it.

    Senator Fischer. Thank you, General.
    Dr. Payne, welcome.

STATEMENT OF DR. KEITH B. PAYNE, PROFESSOR AND DEPARTMENT HEAD, 
      DEFENSE STRATEGIC STUDIES, MISSOURI STATE UNIVERSITY

    Dr. Payne. Thank you, Madam Chair. It's an honor to speak 
here today, and I too am presenting my own personal views.
    The starting point for my remarks is to observe that the 
threat environment has worsened dramatically since the 2010 
Nuclear Posture Review. Moscow is now highly motivated to 
correct the perceived geopolitical injustices supposedly forced 
on it by the West during the Cold War. The Putin regime is 
rearming Russia and changing European borders, with the goals 
of overturning the despised Western post-Cold War order and 
restoring Russia's power position.
    Further, Russia believes it has exploitable political and 
military advantages that enable it to coerce and deter the West 
with nuclear first-strike threats or limited nuclear 
employment. These perceived advantages, combined with Moscow's 
doubts about [North Atlantic Treaty Organization] NATO's 
resolve, now threaten deterrence and our key allies.
    This is not speculation about some dark future; it is here, 
and it is now. President Putin has boasted recently that he 
could have Russian troops in five NATO capitals in two days. 
What are the implications of these beliefs for Western 
deterrence requirements?
    First, the West must end Russian misperceptions that 
limited nuclear employment is a winning strategy, and that 
Moscow's resolve and readiness to break the West are greater 
than the West's resolve and readiness to prevent it from doing 
so. We can help in this regard with declaratory policies and 
relevant exercises that signal Western resolve and capabilities 
in Moscow.
    In addition, a basic need is for U.S. nuclear and 
conventional forces of sufficient size and flexibility to 
adapt, as necessary and over time, to an increasingly hostile 
and very surprising threat environment. Western efforts to 
deploy high-readiness non-nuclear defense capabilities for NATO 
frontline states will likely reduce Moscow's perceptions of 
exploitable advantage and strengthen the credibility of our 
extended deterrence commitments.
    Eight additional steps I'll mention in this regard include, 
first, modernizing the U.S. nuclear triad, possibly to include 
some very low-yield missile options, and strengthening U.S. 
command and control systems.
    Second, deploy national ballistic missile defense to defeat 
any possible limited nuclear attack strategy. This is important 
given North Korean mounting capabilities in this regard.
    Third, advancing the delivery date of the nuclear capable 
F-35 and B61-12.
    Fourth, retaining the unique capabilities of the B61-11.
    Fifth, increasing NATO DCA, dual-capable aircraft, 
survivability and readiness.
    Sixth, expanding DCA burden-sharing among NATO allies.
    Seventh, increasing the active and passive defense of key 
NATO nodes and assets.
    Eighth, ensuring that NATO conventional forces can fight 
and survive in the context of limited Russian nuclear strikes.
    Finally, the development of new U.S. nuclear capabilities 
should not be ruled out or crimped early by policy.
    Increased U.S. nuclear force numbers may well be 
unnecessary, but the currently planned nuclear force posture 
was deemed adequate in 2010 on the assumptions that, one, 
Russia would abide by its arms control agreements; and two, 
that there would be no call for additional capabilities. The 
Russians have now violated that former condition, and the 
latter is now open to question.
    There's much more to say about these issues, but to stay 
within time I'll stop here and look forward to your questions.
    [The prepared statement of Dr. Payne follows:]

                Prepared Statement by Dr. Keith B. Payne
    The forthcoming Nuclear Posture Review (NPR) will confront two 
overarching questions: First: what are the changes in the security 
environment since the 2010 NPR? Second, what do these changes suggest 
regarding U.S. policies and requirements?
    My remarks along these lines today focus on Russia, but there are 
important parallels with regard to United States-Chinese relations that 
we can discuss as well.
    The most fundamental point is that threat conditions have worsened 
dramatically since the 2010 NPR. Indeed, each of the three previous 
NPRs presumed an increasingly benign new world order in which nuclear 
weapons and deterrence would play a declining role. The predominant 
view was that the post-Cold War world was moving beyond nuclear 
weapons, and that nuclear deterrence was increasingly irrelevant to 
United States relations with Russia and China. \1\ In this more benign 
new world the highest priority of U.S. nuclear policy was 
nonproliferation and the reduction of U.S. nuclear forces and their 
roles was deemed critical to advance that priority goal. \2\
---------------------------------------------------------------------------
    \1\ It is difficult to overstate the certainty that attended this 
policy direction. It was reflected in a highly-regarded 1991 Foreign 
Affairs article written by three senior former officials and authors, 
including the late Robert McNamara. To wit, hostility with Russia was 
described as, ``hardly more likely to be revived than the religious 
wars of the sixteenth and seventeenth centuries between Catholics and 
Protestants in Europe,'' Carl Kaysen, Robert S. McNamara, and George W. 
Rathjens, ``Nuclear Weapons After the Cold War,'' Foreign Affairs, Vol. 
70, No. 4 (Fall 1991), p. 96. Over two decades later, the Global Zero 
Commission study, chaired by a former Vice Chairman of the JCS, 
similarly said, ``The risk of nuclear confrontation between the United 
States and either Russia or China belongs to the past, not the 
future.'' James Cartwright, Chair, Global Zero U.S. Nuclear Policy 
Commission, Modernizing U.S. Nuclear Strategy,Force Structure and 
Posture (Washington, D.C.: Global Zero, May 2012), p. 6, available at 
http://www.globalzero.org/files/
gz_us_nuclear_policy_commission_report.pdf.
    \2\ U.S. Department of Defense, 2010 Nuclear Posture Review Report 
(Washington, D.C.: Department of Defense, April 2010), pp. i, iii-vii, 
available at https://www.defense.gov/Portals/1/features/defenseReviews/
NPR/2010_Nuclear_Posture_Review_Report.pdf.
---------------------------------------------------------------------------
    The overarching U.S. policy direction that followed from these 
beliefs was that U.S. nuclear forces and deterrence were of greatly-
declining value, and correspondingly, their salience and numbers should 
be lowered on a continuing and progressive basis.
    Unfortunately, it is now clear that the expected benign new world 
order has been overtaken by reality, \3\ including particularly blatant 
Russian and Chinese drives to overturn the existing political order in 
Europe and Asia respectively, and the decade-long expansion of nuclear 
capabilities pursued by both Moscow and Beijing. Today's stark reality 
is demonstrated by Russia's call for a new ``post-West'' world order, 
\4\ its continuing aggression against Ukraine and explicit nuclear 
first-use threats against NATO states and neutrals. \5\
---------------------------------------------------------------------------
    \3\  So much so that Sweden has decided to return to military 
conscription, and the Swedish Defense Minister, Peter Hultquist, has 
acknowledged: ``Politicians at the time maybe thought that the future 
would be more sunny than the reality is today . . . The security 
situation and what could come in the future was underestimated.'' See 
Martin Selsoe Sorensen, ``Sweden Reinstates Conscription, With an Eye 
on Russia,'' The New York Times, March 2, 2017, available at https://
www.nytimes.com/2017/03/02/world/europe/sweden-draft-
conscription.html?_r=0.
    \4\  Russian Foreign Minister Sergei Lavrov, quoted in, Hui Min 
Neo, Bryan McManus, ``U.S. Pledges `Unwavering' Commitment, Europe 
Lukewarm,'' AFP, February 18, 2017, at https://www.yahoo.com/news/
pence-caps-week-us-diplomatic-efforts-calm-allies-0558127929.html.
    \5\  Then-Commander of the United States European Command, Gen. 
Philip Breedlove, said in Feb. 2016, ``Russia's continued aggressive 
actions and malign influence remain a top concern for our nation and my 
highest priority as EUCOM Commander.'' General Philip Breedlove, 
Commander, United States European Command, United States European 
Command Posture Statement 2016, February 25, 2016, at http://
www.eucom.mil/media-library/article/35164/u-s-european-command-posture-
statement-2016.
---------------------------------------------------------------------------
    The Putin regime has sought repeatedly to coerce the West with 
threats of nuclear first-use employment. According to Russian military 
writings and exercises, as reported, the West is expected to concede in 
the face of Russian nuclear escalation threats or limited nuclear first 
use. \6\
---------------------------------------------------------------------------
    \6\ See for example, Keith Payne and John Foster, Russian Strategy: 
Expansion, Crisis and Conflict (Fairfax, VA: National Institute Press, 
2016). See also, Dave Johnson, ``Nuclear Weapons in Russia's Approach 
to Conflict,'' Recherches & Documents, No. 6 (November 2016), p.13, at, 
www.FRSTRATEGIE.org.
---------------------------------------------------------------------------
    Correspondingly, Russia is not interested in limiting its theater 
conventional or nuclear forces and has deployed a nuclear-capable 
cruise missile, reportedly the SSC-8, in direct violation of the 1987 
INF Treaty. \7\ According to Col. Gen. Sergei Ivanov, then-Kremlin 
Chief of Staff, Russia has little incentive for further nuclear arms 
control negotiations with the United States because Russian systems 
``are relatively new'' while the United States has ``not conducted any 
upgrades for a long time.'' \8\ Unfortunately, this type of 
characterization of U.S. nuclear arms is not controversial. \9\
---------------------------------------------------------------------------
    \7\ Reported in, Michael Gordon, ``Russian Cruise Missile, Deployed 
Secretly, Violates Treaty, Officials Say,'' The New York Times, 
February 14, 2017, at, https://www.nytimes.com/2017/02/14/world.europe/
russia-cruise-missile-rms-control-
treaty.html?rref=collection%2Fbyline%2F michael-r.-gordon. See also, 
Adm. Harry Harris, Commander, U.S. Pacific Command, The View from the 
Indo-Asia-Pacific, WEST 2017 Conference Lunch Keynote, San Diego, CA, 
February 21, 2017, p. 4, available at, http://www.pacom.mil/Meida/
Speeches-Testimony/Article/1089966/west-2017-keynote-the-view-from-the-
indo-asia-pacific/.
    \8\ ``Russia today is not interested in U.S.-proposed arms 
reduction--Sergei Ivanov,'' Interfax, March 5, 2013. (Transcribed by 
World News Connection).
    \9\ The Commander of U.S. Strategic Command, Gen. John Hyten, has 
rightly described U.S. strategic nuclear forces: ``All our stuff is 
old. It's still ready, safe, secure, reliable. It's old.'' See, 
``Hyten: Modernize, Don't Increase Number of Nukes,'' Air Force 
Magazine, March 2, 2017, available at http://airforcemag.com/DRArchive/
Pages/2017/March%202017/March%2002%202017/Hyten-Modernize,-Don't-
Increase-Number-of-Nukes.aspx.
---------------------------------------------------------------------------
    Russia's coercive nuclear threats and reported planning for nuclear 
first use presents a profound new challenge for Western deterrence and 
assurance strategies. \10\ This is not speculation about some dark 
future; this challenge is here and now. \11\ In response, some European 
officials, including in Germany, reportedly now are discussing an 
independent nuclear ``Euro-deterrent,'' \12\ and NATO's Deputy Supreme 
Allied Commander, Sir Adrian Bradshaw, describes the current threat 
context in stark terms: ``The threat from Russia is that through 
opportunism and mistakes and a lack of clarity regarding our deterrence 
we find ourselves sliding into an unwanted conflict which has 
existential implications.'' \13\
---------------------------------------------------------------------------
    \10\ There are many open discussions regarding allied concerns. See 
for example, Bradley Peniston, ``A Key NATO Ally Looks Nervously at 
Putin--And Trump,'' Defense One, January 23, 2017, at http://
www.defenseone.com/threats/2017/01/key-nato-ally-looks-nervously-putin-
and-trump/134765/.
    \11\ Given these unfortunate realities, key Obama administration 
officials rightly concluded that we are now playing catch-up as the 
modernization of U.S. nuclear capabilities is priority number one for 
the deterrence of enemies and the assurance of allies. As a 2016 DOD 
report states: ``The nuclear deterrent is the DOD's highest priority 
mission,'' Department of Defense, Office of the Assistant Secretary of 
Defense for Nuclear, Chemical, and Biological Defense Programs, 
Strategic Planning Guidance FY 2018-2022, February 2016, p. 2. As 
former Secretary of Defense Carter noted in November 2016, ``While we 
didn't build anything new for 25 years, and neither did our allies, 
others did--including Russia, North Korea, China, Pakistan, India, and 
for a
period of time, Iran. We [now] can't wait any longer.''Quoted in, Jamie 
McIntyre, ``Carter Says Nuclear-Armed Foes Catching Up to the U.S.,'' 
Washington Examiner, November 3, 2016, at http://
www.washingtonexaminer.com/carter-says-nuclear-armed-foes-catching-up-
to-the-us/article /2606380.
    \12\ Max Fisher, ``Fearing U.S. Withdrawal, Europe Considers Its 
Own Nuclear Deterrent,'' The New York Times, March 6, 2017, available 
at https://www.nytimes.com/2017/03/06/world/europe/european-union-
nuclear-weapons.html.
    \13\ Sam Jones, ``Nato and EU need `grand strategy' to resist 
Putin, says general,'' Financial Times, March 2, 2017, available at 
https://www.ft.com/content/e8dc5f7c-ff67-11e6-8d8e-a5e3738f9ae4.
---------------------------------------------------------------------------
    Consequently, priority goals for the forthcoming United States 
Nuclear Posture Review must be to: 1) understand Russian goals and 
strategy; 2) understand why Moscow believes it has exploitable 
advantages that now enable it to change the post-Cold War order and 
issue coercive nuclear first-use threats, and; 3) identify in light of 
those goals and beliefs how the West can effectively deter Moscow and 
assure allies. I will take just a few minutes to address these 
questions.
    First, based on open Russian writings and speeches over years, it 
is clear that Moscow is driven to correct what it perceives to be the 
geopolitical injustices of the post-Cold War order forced on it by the 
West in Russia's time of weakness. President Putin famously called the 
collapse of the Soviet Union the greatest catastrophe of the Twentieth 
Century. \14\
---------------------------------------------------------------------------
    \14\ Andrew Osborn, ``Putin: Collapse of the Soviet Union was 
`catastrophe of the century,' '' The Independent, April 26, 2005, 
available at http://www.independent.co.uk/news/world/europe/putin-
collapse-of-the-soviet-union-was-catastrophe-of-the-century-
521064.html.
---------------------------------------------------------------------------
    The West supposedly has pushed Russia too far and has further 
highly-aggressive designs against Russia, including regime change. 
Consequently, the Putin regime is rearming Russia and changing European 
borders with the expressed goal of overturning the despised post-Cold 
War settlement and restoring Russia's power position. This combination 
of Russian goals and perceptions make friction with the West 
inevitable: it carries the potential for high stakes conflict and even 
nuclear escalation.
    Further, Russia believes it has the capability and the will to 
overturn the status-quo, while it doubts NATO's resolve to resist if 
Russia poses the threat of war and nuclear coercion. Moscow's self-
image, in addition to its skepticism regarding NATO's resolve threaten 
deterrence in Europe and understandably frightens our allies.
    I am not suggesting here that Russia wants war or is cavalier about 
the prospect of nuclear war. However, Moscow's perception of an 
asymmetry in resolve and readiness to risk war is key to the potential 
for deterrence failure in Europe and the need to assure threatened 
allies.
    In short, Russia appears to have some felt-freedom to move against 
the West given its perception of this asymmetry of need, will and 
power. Just how much freedom Russia believes it has to expand its 
position and how it will act with that freedom likely depends on 
Moscow's calculations of NATO's determination, readiness and power to 
resist. That is a calculation the West can affect by its statements and 
actions.
    For example, some commentators assert that the Putin regime has 
dangerous designs on the Baltic states, others say it has no such 
designs. My point is that there probably is not a fixed answer to this 
question regarding Russia's readiness to act on its aspirations and 
perceptions of advantage. Rather the Putin regime is pragmatic and the 
West can act to limit Moscow's agenda and actions vis-a-vis the Baltic 
states and elsewhere. This possible constraint on Moscow is what makes 
Russia today different from Germany of the late 1930s, and why 
strengthening NATO's deterrence position is so critical.
    What are the implications of these realities for Western deterrence 
and assurance strategies and requirements? The most basic need is for 
U.S. policies and forces that are of sufficient size and flexibility to 
adapt as necessary to an increasingly hostile and dynamic nuclear 
threat environment. \15\ That principle alone is very different from 
the previous dominant post-Cold War policy direction which sought 
largely to reduce and constrain U.S. nuclear capabilities on a 
continuing basis.
---------------------------------------------------------------------------
    \15\ This need for adaptability has been emphasized by the Trump 
Administration's National Security Advisor, Lt. Gen. H.R. McMaster. 
See, Strategy, Policy and History, Lieutenant General H.R. McMaster, 
U.S. Army, Moderator: Dr. Mark Moyar, Foreign Policy Initiative, FPI 
Forum Transcript, November 20, 2016, p. 10.
---------------------------------------------------------------------------
    More specifically, the West must end Russian misperceptions that 
Moscow's will and readiness to break the West at the risk of war are 
greater than the West's will and readiness to prevent it from doing so.
    We can help in this regard with consistent, resolute alliance-wide 
declaratory policies, along with relevant exercises, that signal a 
message of resolve to Moscow that the United States and NATO will not 
prove wobbly, even under Moscow's coercive nuclear threats, i.e., the 
West must deny Moscow any expectation of an exploitable advantage in 
political will.
    A useful example of a helpful declaratory policy was provided in 
2016 by the then-new British Prime Minister, Theresa May. When asked in 
Parliament if she would ever authorize a nuclear strike given the 
dangers involved, she responded yes without hesitation. Prime Minister 
May added, ``The whole point of a deterrent is that our enemies need to 
know that we would be prepared to use it . . . We must send an 
unequivocal message to any adversary that the cost of an attack on our 
United Kingdom or our allies will be far greater than anything it might 
hope to gain.'' \16\ No doubt Moscow paid considerable attention to 
that unambiguous deterrence signal.
---------------------------------------------------------------------------
    \16\ Theresa May, as quoted in House of Commons Hansard, ``UK's 
Nuclear Deterrent,'' Parliament.uk, July 18, 2016, available at https:/
/hansard.parliament.uk/Commons/2016-07-18/debates/16071818000001/
UKSNuclearDeterrent?highlight=Care.
---------------------------------------------------------------------------
    A related theme in Russian writings is Moscow's apparent belief 
that Russia has exploitable nuclear and conventional force advantages 
over the West. These include greater, immediately-available local 
conventional force capabilities and readiness. President Putin has 
boasted that he can have Russian troops in five NATO capitals in two 
days. \17\ These perceived advantages also include Russian nuclear 
escalation options to which NATO is thought to have no response given 
Russian skepticism about the West's will to resist.
---------------------------------------------------------------------------
    \17\ Quoted in, Justin Huggler, ``Putin `privately threatened to 
invade Poland, Romania and the Baltic states,' '' The Telegraph, 
September 18, 2014, available at http://www.telegraph.co.uk/news/
worldnews/europe/russia/11106195/Putin-privately-threatened-to-invade-
Poland-Romania-
and-the-Baltic-states.html.
---------------------------------------------------------------------------
    The interaction here between increased Western non-nuclear defense 
preparedness in Europe and the perceived credibility of the West's 
nuclear deterrent is important. In response to Russian threats and 
expansionism, Western efforts to deploy high-readiness, non-nuclear 
defensive capabilities to protect NATO front-line states from a Russian 
military fait accompli will likely reduce Moscow's perceptions of 
exploitable advantage and also strengthen the credibility of U.S. 
extended deterrence commitments. Why? Because doing so will deny 
Moscow's perceptions of an easy Russian fait accompli and demonstrate 
united Western resolve to put itself on the line for this cause. The 
West understood this point well during the Cold War. To use Cold War 
terms, a conventional ``plate glass door'' that is understood by Moscow 
to lead to intolerable loss if it should attack can be of great value 
for deterrence.
    The level of additional, forward-deployed NATO defensive capability 
needed for this deterrent purpose is an important question. Lt. Gen. 
Valery Zaparenko, a former deputy chief of the Russian General Staff 
commented recently in this regard, ``You can't deter much with a few 
battalions.'' \18\ A pertinent 2016 RAND study concluded that: ``Having 
a force of about seven brigades, including three heavy armored 
brigades--adequately supported by airpower, land-based fires, and other 
enablers on the ground and ready to fight at the onset of hostilities'' 
might provide an adequate initial deterrent. \19\
---------------------------------------------------------------------------
    \18\ Matthew Bodner, ``No End In Sight for Russia's Baltic Tit-for-
Tat,'' The Moscow Times, September 23, 2016, available at https://
themoscowtimes.com/articles/baltic-tit-for-tat-55434.
    \19\ David A. Shlapak and Michael W. Johnson, Reinforcing 
Deterrence on NATO's Eastern Flank: Wargaming the Defense of the 
Baltics (Washington, D.C.: RAND Corporation, 2016), p. 1, available at 
https://www.rand.org/content/dam/rand/pubs/research_reports/RR1200/
RR1253/RAND_RR1253.pdf.
---------------------------------------------------------------------------
    The difference today, of course, is that NATO front-line states are 
former parts of the Soviet Union or former members of its Warsaw Pact. 
This point may be extremely significant because cognitive studies 
typically conclude that humans will accept greater risk to recover a 
value considered unfairly lost than to acquire a new gain. The 
leadership in Moscow clearly believes the West has inflicted great 
losses on Russia that must be recovered. This point suggests the 
challenge of deterring the Russian leadership in this second nuclear 
age; our Cold War approaches to deterrence are incomplete guides for 
contemporary deterrence strategies.
    Because Moscow views nuclear escalation as an exploitable threat or 
act--based in part on its perceived ability to control escalation to 
its advantage--the West's deterrence and assurance strategies can 
neither escape the nuclear dimension nor be limited to in-theater 
capabilities. There are no solely non-nuclear or wholly local fixes 
that can fully address NATO's deterrence needs.
    Some Western steps in this regard include:

    <bullet>  Modernizing the U.S. nuclear triad, to include some very 
low-yield options on accurate U.S. strategic missile systems, \20\ and 
strengthening command and control systems;
---------------------------------------------------------------------------
    \20\ Defense Science Board, Seven Defense Priorities for the New 
Administration (Washington, D.C.: Defense Science Board, December 
2016), p. 24, available at http://www.acq.osd.mil/dsb/reports/
Seven_Defense_Priorities.pdf.
---------------------------------------------------------------------------
    <bullet>  Deploying U.S. national missile defense capabilities 
sufficient to deny any opponent a plausible strategy of coercing 
Washington via threats of limited nuclear attack \21\ (this step also 
is essential given the emerging North Korean ICBM threat to the United 
States); \22\
---------------------------------------------------------------------------
    \21\ Tom Karako, Keith Payne, Brad Roberts, et. al., Defense and 
Defeat: A Report of the CSIS Missile Defense Project (New York: Rowman 
& Littlefield, March 2017), available at https://csis-
prod.s3.amazonaws.com/s3fs-public/publication/
170228_Karako_MissileDefenseDefeat_Web.pdf?.oYEfXIARU6HCqtRN3Zuq7mKljU3j
Ilq.
    \22\ The Chairman of the JCS, Gen. Joseph Dunford, recently 
observed, ``Clearly we see now a combination of both intercontinental 
ballistic missile capability as well as an effort to put a nuclear 
warhead on that intercontinental ballistic missile. North Korea not 
only threatens South Korea and not only threaten the region but now 
presents a threat to the Homeland as well.'' Dunford Speaks at 
Brookings Institution,'' Department of Defense, February 23, 2017, 
available at https://www.defense.gov/Video?videoid=511122.
---------------------------------------------------------------------------
    <bullet>  Advancing the delivery date of the nuclear-capable F-35 
and B61-12 combination; \23\
---------------------------------------------------------------------------
    \23\ See Orianna Pawlyk, ``F-35 Could Carry B61 Nuclear Warhead 
Sooner Than Planned,'' Tech, January 10, 2017, at, http://
defensetech.org/2017/01/10/f-35-carry-b61-nuclear-warhead-sooner-
planned/.
---------------------------------------------------------------------------
    <bullet>  Retaining the unique capabilities of the B61-11;
    <bullet>  Increasing NATO DCA survivability and readiness; \24\
---------------------------------------------------------------------------
    \24\ A December 2015 NATO report states that DCA aircraft, ``are 
available for nuclear roles at various levels of readiness--the highest 
level of readiness is measured in weeks.'' An earlier GAO Report to 
Congress places that time at 30 days. See respectively, NATO's Nuclear 
Deterrence Policy and Forces, December 3, 2015, available at, http://
www.nato.int/cps/en/natohq/topics_50068.html; and GAO, Report to 
Congressional Requesters, Nuclear Weapons: DOD and NNSA Need to Better 
Manage Scope of Future Refurbishments and Risks to Maintaining U.S. 
Commitments to NATO, GAO-11-387, May 2011, p. 5.
---------------------------------------------------------------------------
    <bullet>  Expanding DCA burden sharing, possibly by inviting 
personnel from additional NATO states to serve as DCA pilots;
    <bullet>  Ensuring that NATO conventional forces can survive and 
fight in the context of limited Russian nuclear escalation;
    <bullet>  Increasing the active and passive defense of key NATO 
nodes and assets against conventional and nuclear strike; and,
    <bullet>  Ensuring the capability to penetrate advanced defensive 
systems such as the S-500.

    Finally, the development of ``new'' U.S. nuclear capabilities 
should not be ruled out peremptorily by policy. \25\ Increased United 
States nuclear force numbers may well be unnecessary, but there are 
some plausible capabilities that could help reduce Moscow's perceptions 
of exploitable advantages. It should be recalled that then-Commander of 
STRATCOM, General Kevin Chilton, observed publicly that the United 
States nuclear force posture deemed adequate for the 2010 NPR was 
predicated on the assumptions that Russia would abide by its arms 
control treaty commitments, and that there would be no call for 
additional capabilities. \26\ The Russians have since violated the 
former assumption, and the latter is now an open question given 
Moscow's expansionism, buildup of new nuclear forces, and dangerous 
views of escalation.
---------------------------------------------------------------------------
    \25\ Defense Science Board, Seven Defense Priorities for the New 
Administration, op. cit. See also the comments by Air Force Chief of 
Staff, Gen. David Goldfein, in ``Nuclear Posture Review Due in Spring: 
Air Force Chief,'' Exchange Monitor, February 9, 2017, available at 
http://www.exchangemonitor.com/publication/morning-briefing/nuclear-
posture-review-due-spring-air-force-chief/.
    \26\ Kevin Chilton, as quoted in, ``Nuclear Posture Review,'' 111th 
U.S. Congress, Senate Armed Services Committee, April 22, 2010, 
available at https://www.gpo.gov/fdsys/pkg/CHRG-111shrg63689/html/CHRG-
111shrg63689.htm
---------------------------------------------------------------------------
    The fiscal year 2016 NDAA's discussion of the U.S. Stockpile 
Responsiveness Program indicates that there is bipartisan support for, 
`` . . . the policy of the United States to identify, sustain, enhance, 
integrate, and continually exercise all capabilities required to 
conceptualize, study, design, develop, engineer, certify, produce, and 
deploy nuclear weapons to ensure the nuclear deterrent of the United 
States remains safe, secure, reliable, credible, and responsive.'' \27\ 
Nevertheless, some commentators suggest that any ``new'' U.S. nuclear 
capability would likely upset the delicate domestic political consensus 
in favor of U.S. nuclear modernization, and thus must be rejected. \28\ 
This domestic political concern may be valid and an important 
consideration, but any review of emerging policy and force needs should 
at least identify those steps that could serve to strengthen deterrence 
and assurance--even if a subsequent political decision is made to avoid 
such steps given anticipated domestic political costs. The prospective 
trade-offs of such a decision must be understood.
---------------------------------------------------------------------------
    \27\ Fiscal year 2016 NDAA, Sec. 4220(a), enacted December 23, 
2016.
    \28\ James Acton, ``Policy Outlook Panel,'' Nuclear Deterrence 
Summit, Washington, D.C., February 28, 2017.
---------------------------------------------------------------------------
    However that question is resolved, a more robust and unified 
Western declaratory policy should complement any new steps. The long-
held policy notion that uncertainty and ambiguity with regard to 
Western deterrence strategy is adequate for deterrence needs to be 
reconsidered. The historical evidence is overwhelming that uncertainty 
and ambiguity sometimes are not adequate for deterrence. Rather, 
explicit and direct deterrence statements are necessary in some cases. 
As former Defense Secretary Leon Panetta recently observed, in some 
cases credible deterrence demands that the United States ``make it very 
clear'' that ``we will respond in kind.'' \29\ Effective deterrence of 
the Putin regime may be such a case.
---------------------------------------------------------------------------
    \29\ Brian Everstine, ``Thornberry: Expect Nuclear Tests During the 
Lame Duck,'' Air Force Magazine, December 2, 2016, available at http://
www.airforcemag.com/DRArchive/Pages/2016/December % 202016 / December % 
2002 % 202016 / Thornberry - Expect-Nuclear-Tests - During - the-Lame-
Duck.aspx.
---------------------------------------------------------------------------
    There is much more to say about these critical questions of post-
Cold War deterrence and assurance, but I will stop at this point to 
stay within my allotted time. I look forward to your questions.

    Senator Fischer. Thank you, Dr. Payne.
    Dr. Samore, welcome.

    STATEMENT OF DR. GARY S. SAMORE, EXECUTIVE DIRECTOR FOR 
RESEARCH, BELFER CENTER FOR SCIENCE AND INTERNATIONAL AFFAIRS, 
                     HARVARD KENNEDY SCHOOL

    Dr. Samore. Thank you, Madam Chair. Thank you, Senator 
Donnelly. I want to thank the subcommittee for giving me this 
opportunity to talk about the emerging nuclear context.
    The first thing I want to say is that in my view the basic 
nuclear landscape is not likely to change dramatically in the 
next five to ten years in terms of the number of countries that 
possess nuclear weapons. As you all know, nine countries have 
nuclear weapons--the United States, Russia, China, U.K., 
France, India, Pakistan, Israel and North Korea--and all of 
those countries view nuclear weapons as essential to their 
defense and their foreign policy objectives. None of them are 
prepared to give them up, and all of them will take the 
necessary steps to maintain, modernize, and expand their 
nuclear forces in order to meet their interests. In other 
words, we're not likely to see any significant move toward 
nuclear disarmament in that time period.
    At the same time, I think the number of additional 
countries seeking to acquire nuclear weapons is very limited. 
The focus, of course, is on Iran. If the current nuclear 
agreement remains in force, then Iran's ability to develop 
nuclear weapons is constrained for at least 10 to 15 years.
    Beyond Iran, the proliferation risk is really limited to 
the Middle East, countries that feel directly threatened by 
Iran like Turkey and Saudi Arabia, and the Far East, countries 
like Japan and South Korea that feel directly threatened by 
North Korea.
    In all of these cases, I think there are a combination of 
technical constraints and political constraints that give us a 
good ability, give us good policy tools to prevent those 
countries, which are friends and allies and partners of the 
United States, from developing their own nuclear weapons, in 
particular if we maintain our strong security ties and extended 
deterrence with respect to those countries.
    In terms of direct nuclear threats to the United States, 
Russia and China will obviously remain the dominant existential 
threats over the next five to ten years. Both Russia and China 
will continue to modernize their nuclear forces, especially in 
terms of deploying a new generation of submarines and road-
mobilized ICBMs in order to assure a survivable nuclear force 
that can overcome U.S. missile defense capabilities and, from 
their standpoint, have an assured ability to inflict 
unacceptable damage.
    Assuming the United States proceeds with its own 
modernization program, neither Russia nor China will be able to 
achieve any option to attack the United States without being 
destroyed themselves. In other words, I think the nuclear 
balance between the United States and Russia and between the 
United States and China is likely to remain robust over the 
next five to ten years.
    In terms of arms control, the New START Treaty helps to 
maintain strategic stability between the United States and 
Russia in terms of imposing verifiable limits on deployed 
strategic warheads and delivery vehicles, but I doubt we'll see 
any dramatic breakthroughs in bilateral arms control for the 
time being.
    In particular, Russia will not accept additional limits on 
its offensive forces unless the United States accepts 
quantitative and qualitative limits on missile defense, and I 
don't think we can do that because of emerging threats, in 
particular North Korea.
    At the same time, I think Moscow will want to keep the New 
START Treaty in place and probably extend it because it 
provides reliability and transparency.
    The INF Treaty, which Russia has violated by deploying 
prohibitive ground-launched cruise missiles, is probably 
unsalvageable, but the strategic consequences are modest.
    Finally, in terms of new nuclear threats on the horizon, 
North Korea's program to develop a nuclear-armed ICBM is 
clearly the most significant and the most immediate. I think 
it's difficult to calculate or predict when North Korea might 
achieve that capability, a reliable nuclear-armed ICBM, but 
certainly with the pace of testing they've been carrying out, 
something in the next five to ten years seems like a reasonable 
guess.
    Unfortunately, our ability to prevent North Korea from 
achieving that capability with military or diplomatic tools is 
very limited, although we might be able to delay the program. 
In the end, I think deterrence and missile defense is probably 
going to be our most effective response.
    The bottom line, nuclear weapons will remain an enduring 
feature of the international security landscape and U.S. 
defense for the foreseeable future. As a result, I think we'll 
need to maintain and modernize our nuclear forces, as the other 
two witnesses have said. We can debate details and numbers, 
schedules and particular weapons systems, but having a robust 
and effective nuclear force is likely to be important for the 
foreseeable future.
    Thank you, Madam Chair.
    Senator Fischer. Thank you.
    I know that all of you have mentioned this explicitly or 
implied it in your testimony, but I would ask you to respond to 
these questions.
    In 2010 the NPR stated, ``Retaining all three triad legs 
will best maintain strategic stability at a reasonable cost 
while hedging against potential technical problems or 
vulnerabilities.'' Do each of you believe this statement 
remains accurate and that the new NPR should validate the 
triad's lasting importance?
    Dr. Samore. Yes.
    Dr. Payne. Yes.
    General Kehler. Yes.
    Senator Fischer. Thank you. Do you all believe the NPR 
should also validate the current modernization plans?
    Dr. Samore?
    Dr. Samore. As I said, I think there's room for debate 
about schedules and deadlines and particular weapons systems 
and numbers, and this is mainly because of budgetary 
considerations. I mean, it's going to be a very expensive 
modernization program, and I think it would be legitimate for 
Congress to take a look at that program and see whether or not 
Congress wants to tinker with the cost by extending deadlines, 
reducing numbers and so forth.
    I don't have a particular view about that, but my point is 
that I think that there's a lot of flexibility, or there's at 
least some flexibility in that program which one might want to 
employ for reasons of saving some money.
    Senator Fischer. If the budget constraints were not an 
issue, would you change your answer?
    Dr. Samore. No. I think the only hesitation I have is 
because of budgetary issues.
    Senator Fischer. Okay, thank you.
    Dr. Payne?
    Dr. Payne. I think getting on with the modernization plan 
of record, with the schedule that's now there, is important, 
and I certainly think that the NPR should endorse that.
    Senator Fischer. General Kehler?
    General Kehler. Madam Chair, given the conditions, if the 
budget was not a constraint, I would want to accelerate some 
things, actually. I support the program as it's been laid out.
    Senator Fischer. Okay, thank you.
    In his 2011 message to the Senate on the New START Treaty, 
President Obama promised to accelerate the design and 
construction of the plutonium and uranium facilities within the 
Department of Energy's nuclear enterprise, and for a variety of 
reasons these facilities remain incomplete.
    Do each of you believe that the country requires a 
responsive nuclear enterprise, including in plutonium and 
uranium facilities, and that the new NPR should confirm this 
need?
    Dr. Samore. Yes.
    Dr. Payne. Yes.
    General Kehler. Yes.
    Senator Fischer. Very good. Okay. This is easy, isn't it?
    General Kehler, given your experience as a former STRATCOM 
commander, can you speak to the value of an air-launched cruise 
missile, the value that that provides, and your thoughts on the 
importance of the [Long Range Standoff Weapon] LRSO program?
    General Kehler. Madam Chair, we have well over 30 years of 
experience now with long-range missiles associated with 
bombers, and what we found both in a conventional sense where 
we've used them in combat many, many, many times over the 
intervening years, and certainly in the value that they have 
played for deterrence, I fully support the requirement to have 
a long-range missile associated with our bomber force. It 
allows us to take a standoff platform like the B-52 and keep it 
viable, and it takes a penetrating platform like the B-21 and 
makes it more lethal.
    In both of those cases, this is not incompatible. I do 
think the LRSO has a bad name, actually, because it isn't 
necessarily a long-range standoff weapon. The questions that 
I've gotten about this have been why does a penetrating bomber 
need a standoff weapon? It's really misnamed. We've had long-
range missiles associated with penetrating bombers back to the 
B-52. When the B-52 used to penetrate, it also had long-range 
missiles on it.
    To me, this is not incompatible. It's about viability of a 
platform like the B-52 in a standoff role, and it's about 
lethality of a penetrating bomber that allows us to cover a 
greater part of the target base, hold that at risk, and 
ultimately enhance deterrence.
    Senator Fischer. Thank you.
    The Obama Administration, like its predecessors, considered 
taking the U.S. ICBMs off alert and rejected that policy, 
maintaining the current alert posture.
    General Kehler, do you believe any changes should be made 
to the current alert posture?
    General Kehler. I do not. In my view, as long as a nuclear-
armed adversary has the ability to strike us quickly, we should 
retain the capability to respond quickly. The issues about hair 
triggers are typically about use-or-lose and concerns about 
vulnerability. As I said before, this is not the Cold War. That 
situation doesn't look quite the same as it did in the Cold 
War. That would require a massive attack from the Russians. No 
one else can do that besides the Russians. The Chinese can't do 
that. It's really about making sure that we have taken steps 
both to plan around a use-or-lose kind of scenario. If you 
think about this, the plans for New START will eventually have 
the bulk of our weapons aboard submarines. It's also about--not 
about the trigger, it's about the trigger finger, and it's 
about making sure that the decision-maker has decision time. A 
lot of work has been done to extend the amount of decision time 
associated with those kinds of decisions that might come with 
time urgency associated with them.
    I think this problem looks different today than it did in 
the Cold War. I think that we get tremendous deterrent value 
out of having the ability to respond quickly. An attacker would 
have to take that into account. I think that in the context of 
the triad, I believe that retaining ICBMs in a ready-to-use 
posture is the right way to go, especially since they're aimed 
at broad ocean areas.
    Senator Fischer. Thank you, sir.
    I would ask all of you, do you believe that the United 
States forces are adequately configured to respond to Russia's 
deescalate strategy in the event that the deterrence would 
fail? What additional steps should we be considering to, I 
guess, better dissuade Russia from continuing down that road?
    Dr. Samore?
    Dr. Samore. I think the most important way to prevent the 
Russians from employing that strategy is a very strong 
conventional defense in NATO. I think the steps that have been 
taken since the Russian seizure of Crimea and the invasion of 
Ukraine are important steps. I think we should take a look at 
other things we need to do, in particular to defend the Baltic 
states, so the Russians understand that any conventional 
aggression against those countries would mean war against NATO.
    We don't want to find ourselves in a situation where the 
Russians have invaded the Baltic states, we're in a conflict 
with them and they use low-yield nuclear weapons, which are 
very important to them, much more important to them than they 
are to us in terms of our overall defense strategy.
    I think deterrence is the name of the game here. We don't 
want to be responding to a Russian use of nuclear weapons in 
Europe. If they were to do that, yes, I think we have 
sufficient forces to respond.
    Senator Fischer. Thank you.
    Dr. Payne?
    Dr. Payne. I would only add to what Gary said, that 
increasing the NATO DCA survivability and readiness would be an 
important step. Right now, according to open sources, the 
highest level alert for NATO DC aircraft is several weeks. My 
guess is--in fact, I'm sure that making that much better--I 
don't know if we'll need to go back to quick action alert 
status of the Cold War, but doing much better than a couple of 
weeks or weeks for our readiness would be extremely important 
to help discourage Moscow from thinking that it can engage in a 
limited nuclear strike.
    Senator Fischer. Thank you, sir.
    General Kehler?
    General Kehler. I agree with both of my colleagues. I would 
only add a couple of points.
    One is I think this says something about the wisdom of 
keeping U.S. weapons in Europe committed to the NATO alliance. 
I would make sure that the B-61 life extension program is 
funded and that we are watching that very carefully to make 
sure that that's proceeding apace.
    The second thing I would do is I would look carefully at 
the plans for the F-35 and its deployment and nuclear 
certification, when that is supposed to happen and when maybe 
we ought to have that happen. We might want to do something 
different there. I don't know that for sure, but that's 
something for us to think about.
    The other thing we ought to at least have on our plate is 
how this might shape the future of missile defenses in Europe.
    Senator Fischer. Thank you very much.
    Senator Donnelly?
    Senator Donnelly. Thank you, Madam Chair.
    Dr. Samore, you mentioned about low yield being important 
to the Russians. Do you believe that our capabilities can also 
match on the low yield end, if necessary?
    Dr. Samore. I think that the B-61 gives us a flexible 
response and will allow us to use nuclear weapons in Europe in 
that scenario. Again, we don't want to be confronted with a 
situation in Europe where tactical nuclear weapons are being 
used. I'm very skeptical that that can be controlled. I think 
there would be extremely high risk that that would escalate to 
general nuclear conflict. The name of the game here is to 
prevent a war in Europe, and I think conventional deterrence is 
the most important line of defense.
    I think, as my colleagues have suggested, I would look at 
things to do to strengthen our conventional capability. I don't 
particularly see any need for us to develop a new low-yield 
weapon, but I'm open to it. If NATO military experts study the 
issue and believe, especially in light of Russian violation of 
the INF Treaty, we need new systems for military purposes, then 
I think that's something we should do, and I don't myself see 
any immediate requirement for it.
    Senator Donnelly. General Kehler, do you believe that we 
have the ability in the low-yield area at the present time?
    General Kehler. I would agree with Dr. Samore on this one. 
I think that one of the features of the modernization plans 
that have been laid out is retaining an ability to hedge our 
bets here. I think the B-61 does give us quite a bit of 
capability here, especially the life-extended B-61. I think 
that that gives us something at the lower-yield end here.
    I would also agree, though, if in studying this and 
watching what's happening with the Russians a need arises, then 
we ought to be in a position to field something that's of lower 
yield. That says to me that what we have to do is make sure 
that the weapons complex can handle that kind of task if it's 
given to them. That gets back to the features of investing in 
the infrastructure to make sure that the weapons complex could 
do that if and when it becomes necessary.
    Senator Donnelly. General, do you believe, when you hear 
about the Russians talking about a low-yield strategy, escalate 
to deescalate, do you think, in the experience you've had, that 
Vladimir Putin believes that, or is he rattling sabers, that 
that is a viable strategy?
    General Kehler. Senator, that's the $64,000 question. I 
don't know. The way I was always taught to think about 
deterrence was there are two ways that you look at an 
adversary: one is capability; the other is intent. Capability 
doesn't change quickly; intent does. All I can go on is what 
they say publicly, and then watch carefully about what their 
capabilities are. In this case, it looks like they are wanting 
to deploy some capabilities that would back that up. That would 
concern me if I was still wearing a uniform because I don't 
know what their intent really is, but if they have the 
capability to do something, that would worry me.
    I also believe, though, like my colleagues, this is very 
dangerous ground for them to be on, and I think that--you know, 
a predecessor of mine some years ago said something that stuck 
with me. All this theory, thankfully, has never been tested. I 
think one of the issues here is the risk that goes with nuclear 
matters writ large. It's why they have deterrent value, by the 
way. I think there's tremendous risk here in the way the 
Russians are talking about their weapons.
    Senator Donnelly. In other words, take him at his word and 
prepare for it.
    General Kehler. As a military person, I couldn't do that 
any other way, actually.
    Senator Donnelly. Dr. Payne?
    Dr. Payne. We're reading tea leaves, like back in the Cold 
War when the Sovietologists tried to figure out who was 
thinking what.
    My view, and I would look at this very seriously, is that 
the Putin regime writ large does have some confidence in its 
escalate-to-deescalate approach. You can see that this approach 
goes back to its exercises, back to ZAPAD-99, where according 
to open sources it used four cruise missiles, and after it used 
four nuclear-armed cruise missiles the West stopped.
    What you see are exercises that look like they're 
reflecting escalate-to-deescalate. I read the Russian military 
daily. The Russian military talks about escalate-to-deescalate 
in very precise terms. It looks like the exercises go along 
those ways. It looks like they're developing forces exactly for 
that and have developed forces for that. On that basis I have 
to conclude, with General Kehler, that to prepare for something 
more benign than that would be imprudent.
    Senator Donnelly. General, do you believe it's in the 
national security interest of the United States to continue 
implementation of the New START Treaty? If so, why?
    General Kehler. I do. I took command at STRATCOM right 
after the New START was ratified. My predecessor was asked if 
he supported it; he did. I was asked that subsequent to that. I 
supported it as well. I still support it. I think that we have 
gotten tremendous benefit out of those kinds of agreements with 
the Russians over the years, provided that the Russians comply. 
It looks to me--and again, all I see is what's publicly 
available today--that our benefit here in terms of on-site 
inspections, in terms of data exchanges, in terms of the very 
interchanges that are required to execute these agreements 
provide value to us. I also think that it has reduced the 
threat that we have to face.
    I believe for a long time that there are two ways to reduce 
the threat. One is by reducing the weapons, and the other is by 
deterring the remainder.
    Senator Donnelly. Dr. Payne, I wanted to ask you a little 
bit about North Korea's KNOA. In focusing on a low-yield 
capability, as you look at this it seems that the challenge--
the primary issue may not be so much targeting it but finding 
it. Do you think that a strategy involving a conventional 
strike capability which could destroy it has the advantage of 
leveraging significant investments we've already made? Do you 
think that's a sufficient strategy or not?
    Dr. Payne. I think it's necessary but not sufficient, 
necessary but insufficient. I would like to see that, but in 
addition strengthening U.S. missile defense capabilities, 
particularly near term for Hawaii, for example, which may be 
one of the most near-term targets that the North Koreans could 
reach, and there are ways we could do that that I think are 
relatively inexpensive, largely with the assets we have now. 
I'd like to see a combination of both offensive options but 
also defensive options just in case the offensive options 
aren't available or are seen as too provocative at the time.
    Senator Donnelly. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Senator Inhofe?
    Senator Inhofe. Thank you, Madam Chair.
    You know, when you're out away from Washington and around 
real people and you remind them that we have reduced our 
capability since the Cold War by 70 percent or something like 
that, while other countries, the obvious ones--China, Russia, 
and others--it was pointed out, as Dr. Samore has said, some 
nine different countries have been increasing theirs, it's a 
real shock treatment to them because they look at that as our 
vulnerability.
    Now, I would first of all just ask you, is it a lack of 
priority by not just the last administration but going back to 
the Clinton Administration, that we have not put our emphasis 
on this deterrent? Back when you had your uniform on, how would 
you have answered that at that time?
    General Kehler. Sir, I think it's a combination of a lot of 
reasons. One, when the Cold War ended, there was a sense I 
think that we had crossed some line that perhaps we didn't need 
these weapons in quite the same way that we needed them in the 
Cold War. I think certainly the conventional conflicts that we 
got engaged in, certainly after 9/11 I think had, from my 
observation anyway, a lot to do with the focus that we placed 
on the nuclear deterrent. I think we put all of that, to use an 
Air Force term, on auto-pilot, and I think over time we had 
benign neglect. As a result of that, we now find ourselves in a 
time when there's a sense of urgency that has to go with 
recapitalizing this.
    Senator Inhofe. Well, yes. Now has your thinking changed, 
since we now are looking at North Korea where its leadership 
are somewhat mentally defective, totally unpredictable? Does 
that change your thinking in terms of priorities?
    General Kehler. It does, and that's why I think you will 
have some very difficult priority decisions to make in any 
budget that comes forward, I'm sure. I think modernizing and 
recapitalizing the nuclear deterrent and its supporting 
elements needs to go to the top of that priority list. I think 
now is the time.
    Senator Inhofe. Okay. Dr. Samore, without your notes you 
quickly responded as to the nine countries. Give us the top 
four in terms of your concern, of your list of nine.
    Dr. Samore. Well, the top three that directly threaten the 
United States are Russia, China, and North Korea. The other 
countries have nuclear weapons for their defense, but it's hard 
to imagine a situation in which they would directly threaten 
the United States.
    Senator Inhofe. The third one you mentioned, North Korea, 
that's the one that's unpredictable. Doesn't that in some ways 
concern you more?
    Dr. Samore. It's very unpredictable. As a consequence I 
think missile defense has to be developed in order to ensure 
that we can protect ourselves against that North Korean threat.
    Senator Inhofe. Okay. Now, on modernization, are we looking 
at capabilities, or are we looking at safety? The reason I ask 
that, a very prominent former war fighter told me a few minutes 
ago that back when a lightning strike might have come carrying 
a weapon, that could have activated it, and now some of the 
modernization has made that safer so that they're not carrying 
around something that could be activated, or even deployed.
    Is safety a major area that we have been sacrificing by 
allowing other countries to progress further than we are?
    Dr. Samore. Well, others may be better equipped to answer 
that than I am. My impression is that our current nuclear 
weapons are extremely safe. I think modernization is really 
more a question of developing new delivery systems----
    Senator Inhofe. I apologize because I was directing that to 
General Kehler.
    Dr. Samore. Oh, I'm sorry.
    General Kehler. Sorry. This is almost like choosing between 
the children, because I am not concerned that our weapons would 
be hard to use if they needed to be used. I am concerned that 
security is different today than it was when these weapons were 
designed and fielded for the Cold War.
    Insider threats, for example, other things that we see 
every day in the news in other places, cyber threats, I think 
we need to take those very, very seriously, and we need to be 
sure that we have done everything we need to do to address 
whatever concerns we find in those regards. Safety is the same 
kind of thing where I don't think you can separate that.
    I don't believe there's an issue today with the ability for 
the United States to use those weapons if so ordered.
    Senator Inhofe. Okay. Dr. Payne, a few minutes ago you made 
the statement--I didn't get the rest of your statement. You 
said we need to look carefully at the F-35. In what context was 
it that you made that statement a minute ago?
    Dr. Payne. Well, I'd very much like to see the nuclear-
capable F-35 and the B61-12 combination advanced to an earlier 
entry date, if that's possible, and there's some evidence that 
it's possible.
    Senator Inhofe. Okay, good. Well, that is significant. Some 
don't agree with that.
    The last question I'd have for you, General Kehler. In your 
opening statement you made a comment. About two years ago you 
took your uniform off, so you have some different ideas now 
than you had at that time, or different priorities. What do you 
see differently now that your uniform is off than you did at 
that time?
    General Kehler. Senator, I actually don't have a different 
view about the way forward than I did then. I am certainly more 
concerned. The United States hadn't slapped the table about an 
INF violation by the time I left that was about to happen but 
it hadn't happened yet. That concerns me.
    The plans that are in front of you today I had a hand in 
shaping, both as a member of the Nuclear Weapons Council and as 
the Commander of Strategic Command. I had a hand in shaping the 
policies that are sitting there in front of you today, the 
nuclear employment strategy that's sitting in front of you 
today, and by and large I still support that range of things 
that were put in place.
    Senator Inhofe. Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator.
    Senator Heinrich?
    Senator Heinrich. General Kehler, congratulations on the 
liberty that your uniform provides for this setting. I want to 
go back to New START for a second. New START allows the United 
States to conduct 18 on-site inspections of Russian strategic 
nuclear forces each year, and we've done that, I believe, every 
year since the treaty was signed.
    In addition, the treaty maintains an extensive database and 
mandates unique identifiers of Russia's strategic forces.
    What are some of the benefits of, in particular the 
intelligence benefits, of having inspections and database and 
unique identifiers? What would be the implications if we were 
to lose that?
    General Kehler. I would contrast--well, first of all, 
Senator, visibility and insight I think are tremendously 
important, as is the face-to-face contact that our inspectors 
and Russian inspectors get with counterparts and the way this 
forces us to interact.
    I think over time, not just with New START but because of a 
number of agreements like this, we've developed a pretty 
comprehensive understanding of the Russians, and I think 
they've got a pretty comprehensive understanding of us, and 
that makes a difference perhaps in some places.
    Senator Heinrich. Which is important in a deterrence 
posture, right?
    General Kehler. Absolutely. It's important for deterrence, 
and I think it would be really important in a crisis.
    Senator Heinrich. If we pulled out or if Russia were to 
pull out of New START, would our strategic stability be 
improved, or would it be dramatically worse?
    General Kehler. Well, it depends.
    Senator Heinrich. Or somewhere in-between?
    General Kehler. I think it depends. I would contrast this 
interchange that we have with the Russians via arms control 
versus interchanges that we have with the Chinese, for example, 
over their forces, which we don't have really. One of the 
things that I always wanted to have was a military-to-military 
exchange with my counterparts in China, and we just were never 
able to make that happen.
    There are things that I knew about the Russians and their 
nuclear forces and capabilities and safeguards and those kinds 
of things that I wished I had known about the Chinese. I think 
if you withdraw from those things, then----
    Senator Heinrich. Are they technical things, or technical 
things and a better understanding of intent and posture?
    General Kehler. Both. I've always believed that bringing us 
together in some way, military to military particularly but 
technical to technical as well, diplomacy to diplomacy, makes 
some sense. I don't believe, by the way, just to finish the 
thought, that this gets done at any cost. I think that there 
are consequences. If the Russians decide that they're going to 
cheat, then I think there ought to be consequences about that.
    Senator Heinrich. What do you see as the priorities for the 
next administrator at [National Security Administration] NSA in 
order to sustain the stockpile and assure that the NSA labs 
have the capabilities that they need to meet our military 
requirements?
    General Kehler. I think they've got to stay on the pathway. 
There have been issues, as I know the subcommittee is well 
aware of the issues that there have been to modernize the 
weapons complex. That is a unique, one-of-a-kind industrial 
complex. It does something that no other industrial complex can 
do. I think the investment in that is very important, but there 
have been real concerns about the costs of that modernization 
and how it's been carried out, et cetera.
    I think that, like with any major acquisition, we've got to 
settle on some requirements, we've got to slap the table, and 
then we've got to invest in it and get going.
    Senator Heinrich. Interrelated with that, as you're well 
aware, Los Alamos Lab is the designated Center of Excellence 
for plutonium research. In your view, does our current 
plutonium strategy maintain the critical skills and the 
capability to support that modernization and production of 
plutonium?
    General Kehler. I think so. At least when I left the movie 
two-plus years ago, I thought we were on the right pathway. I 
am concerned about the skill set writ large. It's not just 
about plutonium. It's about keeping design skills in the 
complex. It's about keeping other skills in the complex. Just 
doing life extension programs doesn't necessarily keep it in 
the complex. If the complex is a hedge strategy for us, which 
is what we've said, then my view is it's not wise for us to be 
a nuclear power with no capability to produce a weapon if we 
ever had to.
    Senator Heinrich. For all three of you, earlier this week 
we saw North Korea launch four ballistic missiles that traveled 
approximately 1,000 kilometers towards Japan. The missiles 
landed about 200 miles from their coastline in the Sea of 
Japan. Do you believe that our missile defense system now 
deployed in South Korea serves as an effective deterrent? How 
could other capabilities, capabilities like cyber or directed 
energy, change the calculus of our adversaries in terms of 
missile defense? That's for whoever, jump ball. Not all at 
once.
    Dr. Samore. I'll start. It's very difficult to defend South 
Korea, because even if you had in place an effective missile 
defense system, it's so vulnerable to artillery and rockets----
    Senator Heinrich. It's right there, 30 miles from the 
border.
    Dr. Samore.--that any conflict would be devastating to our 
Korean allies. I do think that THAAD is justified because of 
the North Korean threat beyond Seoul, and also including United 
States military bases there. I can't answer the military 
question of whether the current battery is sufficient. The 
North Koreans, as you say, demonstrated earlier this week that 
they can fire a salvo of liquid-fueled systems. As they develop 
their solid-fueled systems, they will be even more capable.
    Missile defense is not going to be the complete answer to 
defending Korea. I think there's a different situation with the 
United States. I think for the foreseeable future, North 
Korea's ability to attack the United States with long-range 
missiles is going to be very rudimentary. This is not Russia or 
China in terms of resources and technical capability.
    I think our investment in national missile defense, 
including regional components, is a reasonable strategy for 
trying to defend ourselves if there should be war. I still 
think deterrence is an incredibly important feature of 
preventing war from breaking out, and I think the North Koreans 
recognize that they would be destroyed in a conflict. There's a 
strong incentive on their part not to start a war. It could 
escalate from a local conflict, and I think that's why it's so 
important that we invest in national missile defense against a 
limited threat from North Korea.
    Senator Heinrich. Thank you all.
    Senator Fischer. Thank you, Senator.
    Senator Cotton?
    Senator Cotton. Thank you.
    I want to go back over some of the previous answers and 
questions and clarify or elaborate on some.
    General Kehler, you mentioned slapping the table when it 
came to intermediate-range nuclear forces treaty violations by 
Russia. We've now done that. Our Government has said repeatedly 
that Russia is in violation of that treaty, although we haven't 
done much more than slap the table.
    Could you explain to us the military significance of Russia 
possessing a ground-launched cruise missile system, one that is 
apparently road mobile as well, and maybe also how the United 
States and NATO should consider responding to such a blatant 
violation of the INF Treaty?
    General Kehler. Senator, I think the military impact of 
that at some level remains to be seen. It remains to be seen 
how many they deploy, how they go about doing this. Assuming 
for a moment that they deploy some number of these, I think it 
has implications for us in many ways. It has implications for 
the alliance in many ways, just like deployment of 
intermediate-range nuclear forces did during the Cold War. I 
think that the alliance will have to make some determination 
about how to go forward.
    I think there are a lot of things that can be done. 
Certainly, you can pursue all the avenues in the INF Treaty to 
try to get all of this back on some kind of track, and I don't 
know honestly where that is. Again, all I read about this is 
what I see in the paper, so I don't know where that process 
stands.
    Another thing that you can do, of course, as Dr. Samore 
said earlier, you can enhance our conventional presence and 
capabilities in Europe. We can make sure that our nuclear 
commitment to the alliance and the alliance's nuclear 
commitment and all the pieces that go with that remain firm.
    Ultimately, we can decide whether or not to deploy 
additional capabilities there, whether those are additional 
defensive capabilities that are specifically intended to deal 
with the cruise missile threat, or ultimately whether these are 
additional offensive capabilities that we would have to deploy. 
I think all of those need to be considered as we go forward 
here while diplomacy continues to work its way forward.
    Senator Cotton. Dr. Payne, do you have anything to add to 
that question?
    Dr. Payne. Yes. I think the Russian violation of the INF 
Treaty with the cruise missile actually is important because it 
gives them a capability that's neither short-range nor 
strategic to back up their escalate-to-deescalate threats. If 
we're going to engage in nuclear threats explicitly, which they 
are doing and have done vis-a-vis NATO, having that kind of 
option that doesn't require a short-range system to support it 
and doesn't require them going to their strategic forces to 
support it I believe is an important rung in the escalation 
ladder that they appear to be filling with that capability and 
for that purpose.
    I believe it's a validation for them of their escalate-to-
deescalate threat, which is something we need to counter and 
deny.
    Senator Cotton. Dr. Samore?
    Dr. Samore. Let me add one thing. Russia's violation of the 
INF Treaty frees us from any obligation to abide by the treaty. 
If we decided for military reasons that we needed to deploy 
systems that are currently prohibited by the treaty, I think 
we're free to do so. That's a military judgment that NATO 
should make. I also think it's important to recognize that 
there would be some political cost to doing that, that 
especially in Germany and the Netherlands and other countries 
this would be controversial.
    We need to weigh the military benefits of deploying systems 
if they're necessary against the potential political 
complications and figure out a strategy for overcoming those 
political complications.
    Senator Cotton. Thank you.
    Dr. Samore, in your testimony you said that low-yield 
nuclear weapons are much more important to Russia than to the 
United States. Would you specify for the record why that's the 
case?
    Dr. Samore. Well, it's really a reverse of the situation 
during the Cold War. During the Cold War, we saw the Russians 
as having a conventional advantage, and therefore we needed 
tactical nuclear weapons in order to counterbalance that 
advantage. The Russians now see NATO as having an advantage in 
the conventional area, and they see tactical nuclear weapons as 
necessary to balance that advantage.
    Senator Cotton. Dr. Samore, you said that, quote, ``we 
ought to be open to'' at least research and possibly 
development of new low-yield nuclear weapons.
    Dr. Payne, in your written statement, you seem to be open 
to research and development of all kinds of new nuclear 
capabilities, if necessary, given the threat we face.
    Dr. Payne. I think we ought to be open to looking at it, 
but I particularly think that the very low-yield option is 
something we ought to consider. I agree with Dr. Samore on 
that.
    Senator Cotton. General Kehler, do you agree with the two 
doctors?
    General Kehler. Again, I think whether or not we need to 
deploy a new nuclear weapon remains to be seen. What I would 
not want is to be sometime forward deciding that we need to do 
that and not have the ability to do it. I would----
    Senator Cotton. In terms of the nuclear infrastructure?
    General Kehler. Yes. I would want to keep whatever work in 
the pipeline that is appropriate to keep the skill set there. 
Someone mentioned prototyping, et cetera. There might be some 
good ways that we can keep the right skill set there.
    Senator Cotton. Dr. Samore, you said that North Korea's 
ability to attack the continental United States with a nuclear 
weapon will remain rudimentary. They're obviously developing 
their missile program rapidly. The number of launches has 
increased significantly. They have nuclear devices, clearly. 
They tested them.
    Do you say rudimentary because of the difficulty of 
developing an ICBM, or because of the difficulty of taking the 
third step of marrying those two technologies together, 
miniaturizing the warhead and having a suitable reentry 
vehicle?
    Dr. Samore. That's correct, Senator. The North Koreans have 
not yet demonstrated the ability to have an effective reentry 
vehicle that could survive a long-range delivery. Until they do 
that, they don't really have a credible capability to attack us 
with a missile. Even if they do demonstrate that eventually, 
there are going to be limits on the numbers of ICBMs the North 
Koreans can deploy, on the kind of penetration aids they have, 
whether they have maneuverable warheads. All of this kind of 
high-technology end I think is nothing that the North Koreans 
can achieve in the near term, and therefore I think missile 
defense has a reasonable prospect of defeating their missile 
capability.
    Senator Cotton. Of all the steps that you would take, from 
a standing stock to being able to hold at risk the continental 
United States with a nuclear-armed ICBM, is that last step of 
marrying the nuclear device and the missile in a suitable 
reentry vehicle the hardest technical step to take?
    Dr. Samore. Well, it's the one they haven't been able to 
demonstrate yet. I'm not sure I would necessarily say it's the 
hardest, but the North Koreans have never tested a reentry 
vehicle at that range. It's something we don't know whether or 
not they're capable of, and probably they don't either.
    Senator Cotton. Thank you, gentlemen.
    Senator Fischer. Senator Warren?
    Senator Warren. Thank you, Madam Chair.
    Thank you all for being here.
    I'd like to start by asking about the Iran nuclear deal. 
Our list of problems with Iran is long. Iran sponsors 
terrorism, they engage in human rights abuses, test missiles, 
and take a lot of destabilizing actions in their part of the 
world. Given what Iran is willing to do, I think it's a lot 
easier to counter their provocative actions so long as Iran 
does not have nuclear weapons than it would be to try to cabin 
Iran if they possessed a nuclear weapon.
    Now, we forced Iran to the negotiating table with 
international sanctions, and so far this nuclear deal has 
blocked Iran's path to the bomb while putting in place an 
unprecedented inspections regime. Now President Trump says he 
wants to ignore all of this and instead he has threatened to 
rip up the Iran nuclear deal. It's not just our deal with Iran. 
The agreement includes Britain, France, Germany, Russia, China, 
and the European Union. He can't rip it up. What he can do is 
abandon the deal unilaterally.
    So, Dr. Samore, if the United States unilaterally withdraws 
from the deal, how easy would it be to convince our allies to 
re-impose sanctions on Iran?
    Dr. Samore. Well, I think it would be very difficult 
because they would hold us responsible for blowing up an 
agreement which they believe is working to constrain Iran's 
nuclear program, despite all the other objections we have to 
Iranian behavior. My concern, if we unilaterally abrogated the 
agreement, is that we would find ourselves in a very weak 
position to restore the kind of sanctions that forced Iran to 
negotiate in the first place.
    Senator Warren. That's right. Without those sanctions, what 
are the chances we're going to get Iran to negotiate a better 
deal from our perspective?
    Dr. Samore. Well, the trouble with not having leverage in a 
negotiation is that we might quickly be forced to have to use 
military options. You'd have to be prepared to use military 
force in that event.
    Senator Warren. If the deal collapsed, do you believe that 
the Iranians would likely resume their nuclear program?
    Dr. Samore. I think so, but I think they'd be very 
cautious. I mean, if you look at the history of Iran's program, 
they could be much more technically advanced than they are now 
in terms of producing weapons-grade uranium and so forth. I 
think the Iranians have tried to calculate how can we move the 
program forward without inviting a military attack or strong 
international reaction. I think they would probably revive the 
program. The restraints would be lifted. I don't think they'd 
race for a bomb. I think they're much too cautious for that.
    Senator Warren. It sounds like to me that enforcing the 
deal we have is better than not having a deal.
    Dr. Samore. I think so, and I think as the Trump 
Administration reviews their options my guess is that they will 
probably conclude that it makes sense to continue to abide by 
the deal as long as Iran does.
    Senator Warren. I hope so.
    Let me ask you another part about this. The International 
Atomic Energy Agency is responsible for monitoring and 
inspections of Iran's nuclear program. The United States is the 
largest contributor to this nuclear watchdog budget, and many 
of our allies also contribute.
    According to media reports and a leaked draft executive 
order, President Trump is considering a significant cut to U.S. 
funding for international organizations like the [International 
Atomic Energy Agency] IAEA by as much as 40 percent, and this 
is despite the fact that a GAO report issued last June 
explained that IAEA officials will need about $10 million more 
each year, in addition to the funding they have over the next 
15 years, to fund the verification and monitoring of Iran's 
nuclear program.
    So, Dr. Samore, regardless of what anyone's opinion is 
about the Iran deal, does cutting the IAEA's resources for 
verifying Iran's compliance with the agreement increase or 
decrease the likelihood of Iran developing a nuclear bomb?
    Dr. Samore. Well, if we cut the IAEA's resources, they will 
be less able to monitor Iran's program, and therefore the 
Iranians might calculate they have a greater likelihood of not 
being caught if they cheated. I might add the IAEA, of course, 
does more than monitor Iran's program. They monitor peaceful 
nuclear programs all around the world.
    Senator Warren. The impact is everywhere.
    Dr. Samore. The impact would be everywhere, yes.
    Senator Warren. Thank you.
    The nuclear deal put in place put an unprecedented 
inspections regime on Iran, and that regime has provided tools 
that we didn't have before to help prevent a nuclear-armed 
Iran. If that's actually our goal, it seems to me that it would 
make sense that we would want the nuclear agency that's charged 
with monitoring this to have the tools that it needs to be able 
to do its job.
    I made a note here that Secretary of Defense Mattis was and 
is a critic of the Iran nuclear deal. During his confirmation 
he made the point to our committee, when America gives her 
word, we have to live up to it and work with our allies, and I 
think that's particularly true when our allies are signaling 
that they're going to ignore us if we throw a fit and start to 
walk away from the deal. If we're serious about reducing the 
threat of nuclear proliferation, then I think the United States 
should make sure that the entire world understands that it is 
Iran's fault if this deal falls apart.
    I want to take the last minute I've got, if I can, just to 
follow up on a question about North Korea. We've talked about 
the threat from North Korea. By my count, they've conducted 
five nuclear tests since 2006. We talked about that last week. 
They test-launched four missiles in the Sea of Japan. These are 
real threats from a dangerous, unstable, and nuclear-armed 
state.
    Refusing to talk to North Korea over the last several years 
has not stopped their extreme behavior, and despite the tough 
sanctions they continue these provocative actions.
    The question I want to ask about is that North Korea relies 
heavily on its ally, China, and in recent months the Chinese 
Government has signaled some frustration with the North Korean 
Government and suspended all North Korean coal imports, which 
is a major source of income for the regime.
    Dr. Samore, do you think the Chinese strategy towards North 
Korea has changed? Is that what we're seeing here?
    I'll be careful about my time here, Madam Chair.
    Dr. Samore. I think the Chinese are terribly frustrated and 
angry with Kim Jong Un, and they're signaling to him that if he 
continues to carry out testing that damages China's interests 
they will punish him by exacting economic penalties. From that 
standpoint I think the Chinese are working with us better than 
they ever had before. At the end of the day I think the Chinese 
will not be willing to pull the economic plug on North Korea. I 
think China is too worried about instability.
    We're going to have to figure out whether we want to use 
the economic leverage that we've acquired in order to try to 
negotiate some limits on North Korea's nuclear missile program. 
I'm not terribly optimistic that will work. We've tried three 
times in the past and the North Koreans have always violated or 
cheated or reneged on the agreement, but I do think it's worth 
another try to slow down their effort to develop an ICBM.
    Senator Warren. I take it from this, it is important to 
bring as much pressure as we can bear on China to try to get 
China to bring more pressure on North Korea to try to get them 
to abide by some kind of control agreement.
    Dr. Samore. Well, and to develop a common strategy with 
China, because even though the United States and China have 
different fundamental strategic interests on the Korean 
Peninsula, both of us have a common interest in preventing or 
limiting North Korea's nuclear and missile program.
    Senator Warren. Thank you very much, I appreciate it.
    Thank you, Madam Chair, for your indulgence.
    Senator Fischer. Senator Peters?
    Senator Peters. Thank you, Madam Chair.
    Thank you to our witnesses here today.
    I have a question related to ballistic missile defense, 
particularly continental defense and the location of 
continental interceptor sites. Being the senator from Michigan, 
we are under consideration for one of those sites, along with 
Ohio, New York, in addition to what we have in California and 
in Alaska. I just want to get a sense from one or all of you as 
to the importance of locating a site at one of those three 
places to complement what we currently have existing. Is it 
something that we need to be moving forward with, particularly 
perhaps in light of what we're seeing in Korea, but in addition 
to the sophisticated missile system that the Chinese have, and 
others?
    Dr. Payne. I'll go ahead. I think it is important, sir. The 
recent discussion we just had about North Korea emphasizes 
both, I believe, the need to have what I described earlier in 
my testimony as a capability to prevent limited nuclear strike 
options, particularly vis-a-vis North Korea, but vis-a-vis 
others as well.
    Moving in that direction in my mind is very important 
because I don't believe that North Korea is going to allow its 
nuclear capability to be rolled back. I don't think China is 
actually ever going to press hard enough to do that. It's going 
to continue to expand its nuclear capabilities. It's going to 
continue to expand its missile capabilities.
    We see this going in one direction, and that site east of 
the Mississippi is going to be important for expanding our 
ability to protect the United States.
    Senator Peters. Do others of you agree? It can be a short 
answer. General, do you agree?
    General Kehler. I would agree, with a caveat. I think we 
always have the option to deploy additional missile defenses. I 
would be very interested in how additional steps that we take 
now would be oriented toward dealing with the threat from North 
Korea. I think that's the priority.
    Senator Peters. Okay, thank you.
    Dr. Samore. I don't feel qualified to answer.
    Senator Peters. Okay, that's fine.
    Back to the Russian situation and the deployment of this 
intermediate-range missile in violation of the treaty, which I 
think is very disturbing. I find it curious and I'd just like 
to have your reaction, that when we talk about the New 
[Strategic Arms Reduction] START Treaty, the Russian compliance 
has been pretty good over the years, and there have been news 
reports that Mr. Putin has raised the possibility of extending 
it with President Trump, so those discussions are going on now.
    At the same time that that's going on, they are pretty 
blatantly violating another treaty at the same time. In your 
view, why do the Russians choose to violate one while remaining 
in compliance with the other? What's the strategic calculus 
there?
    Dr. Samore. Well, the Russians have complained about the 
INF Treaty for many years because their argument was it only 
constrains the United States and Russia and doesn't constrain 
other countries that have missiles in that intermediate range, 
and for years now the Russians have proposed that we try to 
globalize the INF Treaty, which I think is not a practical 
suggestion because those other countries wouldn't agree. The 
Russians have felt compelled for their military reasons to want 
to deploy systems that are prohibited by the INF Treaty.
    Now, they're perfectly allowed under the treaty to withdraw 
from the treaty if they feel it's no longer in their interests 
and openly deploy those systems. In typical Russian fashion, 
instead of doing the above-board thing, which is to withdraw 
from the treaty, just like we withdrew from the [Anti-Ballistic 
Missile] ABM Treaty, the Russians do it by cheating and denial, 
and that's the practice we've seen. The reason they comply with 
New START is because they see it in their interest. The reason 
why they violate INF is because they see it in their interest.
    Dr. Payne. I agree with that. The only other point that I 
would make is that the Russians are not just in violation of 
the INF Treaty. They're in violation of a whole series of 
treaties, and I frankly am not entirely confident that the 
Russians are going to meet their obligations to meet the New 
START ceilings next February. I hope that's the case, but they 
are so far above the warhead ceiling now that they're going to 
have to do some serious withdrawal of capabilities to meet that 
ceiling. We'll see whether it happens or not.
    General Kehler. I just agree with my colleagues.
    Senator Peters. What you're saying is that we can't trust 
the Russians. It's pretty clear. They're not our friend on 
many, many occasions, and we have to be concerned about it.
    I'll switch gears to overall proliferation. Dr. Samore, you 
mentioned the weapon states that are out there, the nine that 
have weapons now, and there's a list--I believe it's close to 
30 countries that have peaceful nuclear programs, somewhere in 
that range. I'm concerned about the Iranian deal in the fact of 
what's going to happen in 10 to 15 years when they can get back 
to scaling up the enrichment of uranium, which is certainly one 
of the paths to weaponization.
    The United States has had a fairly consistent policy, I 
think, in the past, that although we support the use of 
peaceful power and believe that every nation has a right to 
peaceful nuclear power, we have not said a nation has the right 
to enrich uranium.
    To what extent are you concerned that some of the other 
countries who may have peaceful programs now and don't enrich 
will start enriching? That could lead to an increased 
proliferation risk. I believe the Canadians have that option 
and they actually decided against it, not because we were 
concerned or that anyone had any concern that the Canadians 
were going to weaponize themselves, but they thought just the 
fact that they were enriching uranium provided a proliferation 
risk that was unacceptable.
    I'm concerned about the other nations out there, and I'm 
hearing Brazil and other countries may be interested in doing 
that. Where does that path lead, and do we need to take some 
steps to constrain the ability to enrich uranium, which would 
be helpful for us to prevent the Iranians from doing it as well 
in 10 to 15 years?
    To any of the panelists, how should we be thinking about 
dealing with this slowly creeping proliferation risk that I 
think is out there?
    Dr. Samore. You know, it's a very good question, Senator. 
We've always been inconsistent in our policy about enrichment. 
We have accepted that certain close allies will develop 
enrichment for peaceful purposes, Japan and Europe for example, 
and we've always tried to draw the line, no new countries 
developing enrichment, which is very difficult. In the case of 
Brazil, for example, the Bush Administration decided not to 
object to Brazil pursuing a peaceful enrichment program.
    I think you're right to be worried about the precedent that 
the Iran deal will set, although as I read the deal and as I've 
talked to the negotiators, in 15 years if Iran seeks to build 
an industrial-scale enrichment plant and we think they still 
harbor ambitions to develop nuclear weapons, we have the option 
to object to that. We're not required to acquiesce. I think the 
nuclear deal in 15 years, if it lasts that long, will have to 
face that issue, will have to face that problem.
    Senator Peters. Thank you so much, appreciate it.
    Senator Fischer. Thank you, Senator Peters.
    My thanks to the panel today for the information you've 
provided to us, and we certainly appreciate your thoughtful 
comments as well.
    With that, the hearing is adjourned.
    [Whereupon, at 4:03 p.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
